U.S. DEPARTMENT OF THE INTERIOR
Office of Inspector General




      Evaluation
      of the Proposed
        Restructure
     of DOI’s Office for
     Equal Opportunity




Report No. X-EV-MOA-0018-2004   January 2004
                 United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240

                                                                      January 6, 2004


Memorandum

To:        Assistant Secretary for Policy, Management and Budget

From:      Earl E. Devaney
           Inspector General

Subject:   Evaluation of the Proposed Restructure of the Office for Equal
           Opportunity, U.S. Department of the Interior

       As you requested, we evaluated an internal proposal to restructure and
centralize the Office for Equal Opportunity (OEO) of the Department of the Interior
(Department).

       Our evaluation was based on a review of the proposal and OEO policies and
procedures; interviews with Department and Bureau OEO employees, Bureau
Directors, Human Resources employees, Department employees, and employees in
the Solicitor’s Office; and information on the operations of OEOs in eight other
Federal agencies.

       We concluded that OEO operations should not be centralized at this time and
that doing so may actually hinder the program. Instead, the Department should
consider changes within the existing organizational structure. Our report includes
suggestions that should improve OEO, save money, build up morale, and ultimately
better serve employees of the Department.

       Although a response to this report is not necessary, we would appreciate
being informed of any actions taken on our suggestions. If you have any questions
about our work, please call me at (202) 208-5745.
Introduction
               The Department of the Interior (Department or DOI) developed a
               proposal to restructure and centralize the Office for Equal
               Opportunity (OEO). The restructure proposes to consolidate
               functions, eliminate duplication, reduce costs, and improve quality
               and timeliness of services to customers. A Management Initiatives
               Team1 (MIT) was formed to review and analyze the proposal.

               Based on the concerns expressed by the MIT and stakeholders that
               the proposal lacked detail in the areas of funding, staffing and
               responsibility, and that it may represent a “solution looking for a
               problem”, the Assistant Secretary for Policy, Management and
               Budget requested that the Office of Inspector General (OIG) assess
               the proposal and explore other options.

               Our assessment2 included benchmarking against eight other
               government agencies3 (see Appendix 1) to determine best practices
               within their OEO programs; interviewing Department and Bureau
               OEO employees, Human Resources (HR) employees, Bureau
               Directors, employees in the Solicitor’s Office, and DOI employees on
               the MIT; and reviewing policies, procedures and other documents
               related to the OEO program at DOI.

               In summary, we found no evidence to conclude that such a
               wholesale restructuring would accomplish any of its stated
               objectives. We also discovered that the unexpected results of such a
               restructuring would be severed communications with stakeholders –
               an impediment to prevention and early resolution of potential
               complaints.


               1
                 The Team was composed of representatives from seven bureaus and the Office of
               the Secretary.
               2
                 We performed this assessment in accordance with the Quality Standards for
               Inspections issued by the President’s Council on Integrity and Efficiency in March
               1993.
               3
                 We benchmarked at Department of Labor, Department of Energy, Department of
               State, Department of Veterans Affairs, Small Business Administration,
               Environmental Protection Agency, Department of the Army Material Command, and
               the Department of Education.
                                                                                               2
We did find, however, that management centralization may be a
viable option for addressing Title VI and IX civil rights issues.4

Finally, we concluded that the Department has less costly and less
disruptive alternatives to the proposed restructure. We identified
several key areas – leadership, organization, and accountability – that
need improvement in the OEO program, but conclude that this can
be accomplished largely within the existing OEO structure.




4
  Title VI prohibits discrimination based on race, color, or national origin in
programs and activities receiving federal financial assistance; Title IX prohibits
discrimination based on sex in any educational program or activity receiving federal
financial assistance.
                                                                                   3
Department’s Proposed Restructure
             The restructure of OEO proposes to consolidate functions,
             eliminate duplication, reduce costs, and improve quality and
             timeliness of services to customers.

             The restructure would:

                9 Centralize 160 current full-time employees from 58
                  locations throughout the United States into a
                  headquarters office, three regional offices, and eleven
                  satellite offices.

                9 Suggest that centralization would reduce the backlog of cases
                  and improve timeliness and efficiency. It states that case
                  resolution continues to take too long (average 700 days).

                9 Realign the Affirmative Employment Program (AEP) under
                  individual bureau HR offices in order to gain hiring authority
                  for recruitment purposes and to accomplish affirmative
                  employment goals and diversity initiatives.

                9 Consolidate complaints of internal discrimination (Title VII)
                  and public civil rights violations (Titles VI and IX) in the
                  renamed Office of Civil Rights that would be co-located in the
                  above-mentioned regional and satellite offices.




                                                                               4
OIG Review and Findings
             On its face, the proposal appears to present an opportunity to
             streamline the OEO’s functions. Upon closer examination, however,
             we found that:

                9 The benefits of restructuring, if any, are gained at the cost of
                  communication and proactive prevention.

                9 Centralization would cause bureaus to lose staff
                  positions and to incur additional costs for OEO services
                  through the Department’s Working Capital Fund.

                9 Centralization of the OEO offices would eliminate essential
                  day-to-day interaction among OEO counselors, human
                  resources staff, employees and managers, and thus, may
                  impede early resolution.

                9 The proposal does not persuasively demonstrate how
                  centralization will reduce costs.

                9 The proposal overstates the average number of days for DOI
                  case resolution (705 days), which is less than the average
                  processing time of 867 days among federal agencies. In
                  addition, on average, 467 of those days represent time that the
                  complaint was pending at the Equal Opportunity
                  Employment Commission.

                9 The proposal does not identify the costs or source of funding
                  for the restructure. Further, it did not provide a sufficient level
                  of detail – such as total number of affected employees or
                  projected number of permanent change of station (PCS)
                  moves – to even allow us to estimate the cost of the
                  restructure. The costs, however, could be high. In that
                  regard, the average cost for a permanent change of station is
                  $80,000; the average severance pay for a GS-13 employee is
                  $71,000; the average start-up costs (phone and data lines,
                  furniture, etc.) for 50 people is approximately $1.5 million; the
                  average annual lease for the same 50 people is about $300,000.


                                                                                     5
9 The proposal does not define the assignment of staff and
  resources, nor does it consider the impact on the bureaus.

9 The proposal may require the Department to reprogram
  current funding for buy-outs and early-outs (contrary to the
  proposal’s assumptions) because it has not identified
  employee positions and job locations. As it stands, it may also
  require a reduction-in-force.

9 The proposal realigns AEP staff under HR, but the
  majority of bureau comments prefer to keep it in OEO.

9 The proposal fails to address several weaknesses in OEO
  – real or perceived – that were identified by stakeholders
  (see Appendix 2).




                                                                6
Suggested Actions
                      With a focus on the successes in the bureaus’ and other departments’
                      OEO programs, we identified five areas that, if strengthened with
                      vigorous Departmental involvement, could be addressed within the
                      existing OEO structure, eliminating the need for the proposed
                      restructure and its attendant disruptions, costs and uncertainties.

                         1. Bolster Central Leadership

                      The Departmental OEO suffers from the perception it lacks strength,
                      objectivity and assertive management of the program. This, in turn,
                      dilutes the effectiveness of the program in the bureaus.

  “[There is] No      Our interviews confirmed that employees firmly believe that strong
  leadership at the   departmental leadership is the key to achieving effective program
  departmental        operation. Employees do not believe that the current Departmental
  level.”
                      OEO has the necessary leadership. In fact, the perception at seven of
                      the nine bureaus is that there is “no leadership at the departmental
                      level.” Employees believe that this must change.

                      We did not conduct an in-depth review of OEO management, and
                      thus, cannot comment substantively on the validity of the leadership
                      concern. We do, however, recognize the considerable impact that
                      perception has in the leadership arena and offer the following actions
                      that might be taken by the Department to resolve the leadership
                      perception problem:

                         A. Ensure that the OEO Director is technically qualified to lead
                            the OEO office and is equipped to effectively and impartially
                            advance the mission of the OEO Program for the Department.

                      The OEO program is dedicated to the principle that employees are
                      entitled to equal opportunity in the workplace without regard to
                      their race, color, sex, national origin, religion, disability, age, or
                      sexual orientation. An OEO program committed to an affirmative
                      effort of education, outreach and prevention should, if successful,
                      spend increasingly less time involved in the complaint process.


                                                                                               7
                 Leading a successful OEO program requires more than a basic
                 knowledge of EEO laws and regulations and more than fundamental
                 management skills, although these are necessary prerequisites. A
                 successful OEO program, however, also requires a leader with vision
                 and gravitas, who can command the respect of managers and
                 employees alike, and who can lead the OEO staff with a firm
                 command of the principles that underlie equal employment
                 opportunity combined with powerful and effective management
                 skills.

                 A successful leader must also be supported by an objective
                 organizational framework that builds and sustains the confidence of
                 stakeholders. Internal controls to ensure accuracy, quality and
                 consistency in the administration of the OEO program must be
                 established, not only to protect the integrity of the OEO program,
                 itself, but to enhance both the perception and the reality of impartial
                 accountability.

                 The OEO program at the Department of State has recently been
                 revamped, addressing many of the same challenges that the DOI
                 OEO program faces. The Department of State OEO program could
                 serve as a model for DOI as it seeks to improve its program.

                    B. Elevate the level of importance and the perception of
                       objectivity of the OEO Director by having that individual
                       report directly to the Assistant Secretary for Policy,
                       Management and Budget.


There is a       The OEO leadership must overcome a perception of bias and lack of
perception of    neutrality, a perception voiced from both management and
bias and lack    employees of the Department, especially in offices that report
of neutrality.   through their HR office. The perception of bias, whether pro-
                 employee or pro-management, is a factor that employees take into
                 consideration when deciding whether or not to file a complaint. All
                 of the eight agencies we benchmarked have OEO programs that
                 report outside of HR, precisely because it sends a strong
                 message of neutrality to both employees and managers.

                 If the Department’s OEO Director reports directly to the Assistant
                 Secretary for Policy, Management and Budget, rather than through
                 the Deputy Assistant Secretary for Human Resources and Workforce
                                                                                           8
Diversity, this realignment will set the stage for the OEO to
assume a role of central, objective leadership without
centralizing the entire program. This reporting structure is
encouraged under guidance issued by the Equal Employment
Opportunity Commission and has been adopted by each of the
agencies we visited. This reporting realignment should also be
followed by the bureaus, with bureau OEO Directors reporting
through the Bureau Director to the Departmental OEO Office.

   C. Ensure that the OEO office issues clear, consistent, and
      concise EEO policies and procedures.

The Departmental OEO needs to issue readily understandable EEO
policies and procedures that are implemented and adhered to
Department-wide. Specifically, OEO leadership needs to provide
standardized policies and procedures that do not require individual
interpretation, including checklists, definitions, and the roles and
responsibilities of the Department and bureaus. For example, there
are inconsistencies in policies and procedures among the eight
different agencies in the Department because each one has its own
interpretation of how EEO should be organized and operated.
Furthermore, even those policies and procedures governing the OEO
headquarters office need to be revisited and revised to provide
clarification of responsibilities and establish internal controls to
ensure accuracy, quality and consistency in the administration of the
OEO program.

The eight governmental agencies that we benchmarked unanimously
agreed that clear and concise policies, procedures, and guidance are
critical to an effective equal opportunity program.

Even the Departmental Manual (DM) contributes to the confusion.
For example, the DM grants to the OEO Director the authority for
“[m]aking final decisions on complaints filed by employees and
applicants alleging discrimination.” This language suggests
that the OEO Director has exclusive authority in this arena, and
fails to capture the role of the Program office and the Office of
the Solicitor in the process. Absent a formal review (including
legal review) and approval process, this practice not only fails to
provide quality assurance and control, but subjects the Department
to potentially damaging decisions that it may be forced to abide by.
                                                                    9
A 2003 study5 confirmed that the Department’s OEO is responsible
for policy development and programmatic guidance, dissemination
of guidance to bureaus, and monitoring and overseeing bureaus’
civil rights enforcement. Currently, the Department’s OEO still lacks
a unit dedicated to policy development and programmatic guidance.
The bureaus have been charged with formulating procedures, but
the Department has not followed up to ensure that this has been
done.

Areas in which clear, concise policy and procedures are seriously
lacking include, but are not limited to:

    9 Acceptance of complaints for investigation
    9 Conducting EEO investigations
    9 Settlement negotiations, including Alternative Dispute
      Resolution
    9 Settlement authority, including review and sign-off
      requirements
    9 Training requirements for OEO officers, counselors and
      investigators
    9 Training requirements for managers and employees

The OEO need not begin anew. Our review identified two agencies
from which the OEO might borrow and adapt sound EEO policies
and procedures. The Environmental Protection Agency and the U.S.
Army Materiel Command both have decentralized field office EEO
operations and have policies and procedures in place that are
comprehensive and comprehensible.

    D. Ensure that the OEO monitors and enforces adherence to
       policies and procedures addressed under C, above.

The Departmental OEO should maintain an active oversight role and
improve efficiency. For example, contracts for EEO investigative
services have been problematic for the individual bureaus because
they utilize different contract standards and often settle for the lowest
bidder. In one instance, it took a bureau a year to get the case back
from a negligent contractor. In another case, a bureau was left to fight

5
 “Ten-Year Check-Up: Have Federal Agencies Responded to Civil Rights
Recommendations?” U.S. Commission on Civil Rights
                                                                       10
                with procurement over price issues. In yet another example, a
                bureau went through four contractors before it finally got a reliable
                investigative product from a fifth contractor. An OEO centralized
                contract for investigative services awarded to a responsible bidder
                would certainly address some of these problems.

                All departmental employees should be aware of their civil rights;
                however, the DOI does not provide general, accessible civil rights
                training. Once again, the Departmental OEO office is missing an
                opportunity to take a leadership role by distributing clear and
                consistent policies and procedures to the bureaus, and by making
                civil rights training accessible to all DOI employees.

                 To enhance monitoring, enforcement, and oversight, the OEO office
                could:

                     9 Assign Departmental OEO employees as liaisons to specific
                       bureaus
                     9 Administer an annual department-wide survey to assess
                       neutrality within the OEO program
                     9 Conduct self-assessments of bureau OEO offices

                The Department could incorporate a central approach that affords
                bureaus a level of autonomy but also facilitates cooperation and
                communication. Also, OEO should focus on the totality of
                management accountability and implement oversight and quality
                assurance procedures to ensure that responsibilities delegated to the
                bureaus are carried out properly, quickly, and consistently.

                   E. Staff the OEO with diversity reflective of the Department’s
                      workforce.

“There is no    The Department has a goal to ensure that its workforce is
diversity in
                representative of the American population. All bureaus and offices
the diversity
office.”        should maintain a diverse profile in their OEO offices and strive to
                achieve a level of diversity that at the very least resembles, if not
                reflects, the make-up of the Department. We heard concerns from
                more than one bureau that “there is no diversity in the diversity
                office.” Greater diversity in the OEO office will better equip
                counselors to relate to and effectively counsel employees.


                                                                                        11
                   We suggest that the Departmental OEO office develop a staffing
                   plan, recruit individuals that represent the diversity in the
                   Department, and consider rotating field employees through the
                   Departmental OEO office.

                      2. Keep an OEO Presence in the Field

  “Face-to-face    The proposed centralization emphasizes prevention over resolution.
  counseling is
                   However, centralization could potentially deprive current offices, in
  important.”
                   remote places such as Juneau, Alaska or Gallup, New Mexico, of
                   access to an on-site counselor to prevent a complaint. According to
                   the government agencies we interviewed, a higher number of
                   complaints are resolved informally when the OEO counselor is
                   immediately available to both management and employees. To
                   remove the OEO presence from the field environment would
                   distance employees from the process and decrease their level of
                   comfort. On-site counselors have built the relationship of trust and
                   confidence necessary for a complainant to disclose his or her
                   concerns and for managers to seek guidance about their
                   responsibilities. As one bureau employee explained, “Face-to-face
                   counseling is important in most cases. Intake over the phone is only a
                   way to get started.”

                   The proposed regional office concept unnecessarily formalizes the
                   informal consultation that exists presently on both sides and may
                   compromise open communication. We heard many concerns that the
                   program would become impersonal and detached if moved to the
                   Department level. The bureaus feel strongly about maintaining an
                   OEO presence in the field. We agree.

“Case resolution   During FY 2002, there were 1,006 informal complaints filed with
rate exceeds       the Department’s OEO counselors, of which only 343 went to
the government     formal complaint, resulting in a resolution rate of 66 percent.
average.”
                   Compared to the governmental agencies we benchmarked, the
                   DOI’s resolution rate was prominent. In fact, according to the
                   most recent report that the DOI submitted to the EEOC, DOI
                   states that the, “resolution rate exceeds the government average
                   by 15 percent.”




                                                                                      12
                                 Percent of Complaints Settle d before Formal Stage

                        0.8
                              0.7406

                        0.7            0.659


                                               0.5848
                        0.6                             0.557
                                                                0.5268
                                                                             0.5
                        0.5
                                                                                    0.4274
                                                                                             0.3953
                        0.4


                        0.3


                        0.2
                                                                                                      0.1481
                                                                                                               0.1136

                        0.1


                         0
                               DOS




                                                        VA




                                                                                              SBA
                                                                 Education
                                                EEOC
                                       DOI




                                                                                                       DOL

                                                                                                                DOE
                                                                             Army

                                                                                     EPA
                    These statistics6 suggest that the current decentralized structure
                    promotes awareness and prevents complaints because employees
                    have direct access to OEO staff. Centralization, on the other hand,
                    would eliminate the essential interaction among Departmental
                    employees, managers, HR, and OEO officials, which was chronicled
                    to us by those we interviewed.

                        3. Assign Permanent Legal Counsel to OEO

The OEO does        All eight of the government agencies we benchmarked reported that
not fully utilize   their OEO managers worked directly with legal counsel dedicated to
the Solicitor’s
                    equal opportunity issues, interpreting case law, and reviewing
Office.
                    legally-binding documents, such as, final agency decisions,
                    settlement agreements and appeals.

                    The OEO at DOI should have similar access to permanent, full-time
                    legal counsel from the Office of Solicitor (SOL). Once access to legal

                    6
                      While these statistics do suggest that the Department is successful in its early
                    resolution of potential complaints, this high rate of resolution could also indicate that
                    the Department is settling cases that should not be settled.
                                                                                                                        13
                  support for the Departmental OEO has been addressed, a needs
                  assessment should be performed to determine how much legal
                  support the bureaus need in the field.

                  The SOL legal support in the equal employment opportunity arena
                  should be supplemented with expertise and support in the human
                  resources arena. A related concern we heard from stakeholders was
                  the lack of involvement of the HR office, particularly in the context of
                  settlement agreements.

                  Currently, the OEO does not benefit from the full extent of the SOL’s
                  legal advice, although the SOL has made repeated efforts to provide
                  its legal assistance, due to a perceived conflict of interest7. We
                  suggest that, in order to avoid any perception of a conflict of interest,
                  the Solicitor’s Office assign legal resources that work primarily on
                  equal opportunity matters and that they be segregated from
                  attorneys involved in the hearing and resolution process.

                  If SOL legal support were supplemented with close communication
                  between the OEO and HR offices, the Department could significantly
                  reduce the risk of settlement agreements conflicting with personnel
                  regulations. One of the bureaus adheres so strongly to this
                  cooperative approach that it requires an HR official to sign-off on all
                  settlement agreements involving personnel actions.

                      4. Phase Out “Collateral Duty Counselors”

Collateral duty   The OEO counselor is central to the entire complaint process. An
counselors        effective counselor must be knowledgeable of the legal rights and
should be
                  responsibilities attendant to Equal Employment Opportunity, must
phased out.
                  maintain a high level of professional objectivity, and, at the same
                  time, empathetically advise individuals who believe they have been
                  aggrieved.

                  Presently, full-time Department employees – in professions as
                  diverse as accountants, geologists, and park rangers – volunteer as
                  “collateral duty” counselors. The OEO ensures that they receive
                  annual training, but the nature of the complaint process requires a
                  high level of dedication and involvement.

                  7
                   The perceived conflict of interest exists because SOL attorneys represent the
                  Department, and by extension are viewed by the OEO representing management.
                                                                                                   14
             A number of those we interviewed believe that part-time counselors
             are ill-equipped to resolve disputes at the earliest stages and lowest
             possible level. They suggested phasing out collateral duty counselors
             and replacing them with full-time, albeit fewer, counselors. Some
             bureaus have already done so.

             Given their considerable importance to the process and the level of
             responsibility assigned to these counselors, we agree that collateral
             duty counselors should be phased out and replaced with full-time
             counselors, to the extent practicable. We recognize, however, that in
             some locations the use of collateral duty counselors will continue to
             be necessary, and therefore, do not advance this change wholesale,
             but rather in a reasoned, well thought-out approach.

             Competing demands and inherent potential for conflict of interest
             reinforce the wisdom of discontinuing the collateral duty counselor
             approach. Anecdotally, we learned of a collateral duty counselor
             who received training for seven consecutive years with no cases to
             handle, only to quit this collateral duty when finding her first case
             “too difficult” to handle. In another instance, a collateral duty
             counselor delayed the interview of the manager against whom the
             complaint was made for several weeks because the manager was the
             selecting official on a promotion for which the counselor had applied.
             Bureau OEO offices invest in and expect performance from collateral
             duty counselors, but the OEO offices have no authority to measure
             the timeliness or effectiveness of a collateral duty counselor’s job
             performance. Full-time counselors assigned to bureau OEOs would
             provide OEOs with oversight, annual performance input, and
             removal authority over the counselors on whom they so greatly rely.

                 5. Institute a Departmental Tracking System


A tracking
             DOI has no centralized, automated complaint tracking system.
system can   Seven of the eight governmental agencies we benchmarked use an
serve as a   automated complaint tracking system,8 allowing them to accurately
management   track complaints, generate required reports, increase the ability to
tool.
             monitor component complaint activity, improve intra- and inter-
             departmental communication, and provide greater transparency.
             Currently, the majority of bureaus receives only limited EEO case

             8
              The eighth agency was small enough to adequately track its complaints with
             manual spreadsheets.
                                                                                           15
information and feels alienated from the process at the Departmental
level.

Frustrated with the lack of a Departmental tracking system, one
bureau developed its own system to track complaints. Another
bureau regrets not purchasing a tracking system, while other bureaus
continue to request that the Department acquire an automated
tracking system.

Absent this technology, the Department cannot accurately determine
the status of complaints. For instance, one bureau was not informed
that a complaint it believed had been resolved, had, in fact, been
appealed. A tracking system can also serve as a management tool, on
a much broader level, to monitor trends, identify available resources,
and match resources to bureau needs. A tracking system would also
allow the Department to target weaknesses, identify best practices,
and communicate case information.

Finally, a tracking system would also provide the Department with
comprehensive information about settlement of cases. While we
developed no specific information in this assessment to suggest that
complaints are being settled inappropriately, the Department has no
present ability to capture and analyze this aspect of the OEO
program. A tracking system would alleviate this management
deficiency.




                                                                   16
Additional Issues
                       1. Affirmative Employment Program

                The proposed restructure realigns the Affirmative Employment
                Program (AEP) under HR. Currently, the HR staff has hiring
                authority, and the proposal suggests that the AEP group, in order to
                gain hiring authority for recruitment purposes, be transferred to HR.
                Citing the protection of Privacy Act information, the bureaus
                expressed their preference that the AEP staff remains in the OEO.
                The bureaus propose having a cooperative relationship between
                OEO/AEP and HR, with both offices represented at job fairs for
                recruitment purposes.

                While we found no Privacy Act prohibition, we suggest that the
                Department revisit whether AEP should remain in the OEO. This
                would leave in place the existing structure, optimize recruitment, and
                retain the information for which AEP is responsible in the office
                where such information is most useful and needed.

                       2. Titles VI and IX

We suggest      The proposed restructure would realign the Titles VI and IX Civil
that the OEO    Rights Programs into the newly formed regional offices.
centralize
current civil
rights staff.   The area of Titles VI and IX civil rights provides a unique
                opportunity for the OEO to exercise leadership. To best address the
                complexity of these issues, civil rights staff should secure and
                maintain specialized substantive knowledge in the specific areas of
                the law for which they are responsible, as opposed to cross-training.
                We suggest that the OEO consider centralizing in Washington, D.C.
                current civil rights staff to pool the Department’s expertise and build
                a comprehensive knowledge base of public civil rights laws.

                The OEO should then consider compiling a database of federal
                funding recipients, conduct a workload analysis, and design a plan of
                implementation to perform pre-awards, post-awards, and on-sight
                reviews of federal recipients.


                                                                                     17
In Closing
         The Office for Equal Opportunity does not call for restructuring:
         rather, it calls for some profound changes within the existing
         organizational structure. These changes can be accomplished,
         however, with considerably less disruption to OEO’s operations and
         with far less impact on the potentially affected human resources.

         We believe that the changes suggested in this report will
         improve the OEO, save money, improve morale, and ultimately,
         better serve the employees of the Department of the Interior.
         We hope that these suggestions will be used constructively
         while the circumstances are optimal for change.




                                                                         18
                                                                   Appendix 1
                                                                    Page 1 of 2


Benchmarking
                                                       *
   COMMENTS ON                            FEDERAL AGENCY
 CRITICAL ELEMENTS               DOL   DOE DOS VA SBA EPA      DOA    ED

Agency heads issued a
statement of commitment on       X     X   X   X   X       X   X       X
civil rights.


Having OEO directors report
to the agency head sent the
message to employees that        X     X   X   X   X       X   X       X
civil rights and equal
opportunity are high priority.


OEO directors reported
                                           X                   X
directly to the agency head.


OEO directors did not report
directly to the agency head
                                 X     X       X   X       X           X
but had direct access when
needed.


Having the OEO director not
report directly to the agency
head adversely affected the                    X
perceived commitment of the
agency to the program.


OEO directors did not report
to Human Resources and
                                 X     X   X   X   X       X   X       X
doing so would conflict with
OEO statutory requirements.




                                                                            19
                                                                                           Appendix 1
                                                                                            Page 2 of 2



       COMMENTS ON                   DOL       DOE     DOS     VA     SBA EPA        DOA      ED
     CRITICAL ELEMENTS

    The training of employees
    was used as an opportunity
    to proactively disseminate       X          X       X       X      X       X       X       X
    and discuss program
    information.


    A form of self-assessment
    was used to monitor program
    progress and identify barriers
                                     X          X       X       X      X       X       X       X
    that impeded free and open
    competition in the work
    place.


    An automated complaint
    monitoring and tracking
    systems was implemented,
                                     X          X       X       X              X       X       X
    utilized, and considered
    necessary to the successful
    management of the program.


    Dedicated legal counsel has
    direct involvement in the
    complaint process and was        X          X       X       X      X       X       X       X
    critical to an impartial and
    objective OEO program.


*
 The Federal agencies include the Department of Labor (DOL), Department of Energy (DOE), Department of
State (DOS), Department of Veterans Affairs (VA), Small Business Administration (SBA), Environmental
Protection Agency (EPA), Department of the Army Material Command (DOA), and the Department of Education
(ED).




                                                                                                     20
                                                                                           Appendix 2
                                                                                           Page 1 of 2


Comments and Concerns
During our interviews, bureau employees raised many concerns about the OEO restructuring similar to
those expressed to the Assistant Secretary. We created the table below to show those concerns. If an “x”
is not indicated for a bureau, the concern was not raised during our interviews. This is not a survey; it
merely demonstrates that a particular concern was mentioned by employees of one or more bureau.

The information presented was obtained through interviews with departmental and bureau employees,
including bureau management, and OEO program managers and staff, and two “white papers”
provided to us.

 Comments and
 Concerns               BIA   BLM     BOR     FWS     MMS     NPS     OS    OSM     USGS


 Department acts as
 if OEO proposal is a   X      X       X       X        X       X      X      X        X
 done deal


 Proposal does not
 identify problem;
 leaves unanswered
 questions, including   X      X       X       X        X       X      X      X        X
 costs associated
 with RIFs and PCS


 Why do all Bureaus
 need to change if
 problem is with only          X       X       X                X      X               X
 a few


 Use a pilot project
 for bureau(s) with                    X       X                X      X               X
 problems


 OEO personnel
 should be
                        X                      X                X                      X
 knowledgeable and
 full time




                                                                                                   21
                                                                              Appendix 2
                                                                              Page 2 of 2




Comments and              BIA   BLM   BOR   FWS   MMS   NPS   OS   OSM   USGS
Concerns


Face-to-face
counseling and
knowledge of bureau       X      X     X     X           X    X     X     X
may be lost with
centralization

No leadership at the
                          X      X     X     X     X     X                X
Department level


Bureaus are not
informed of
appeals/status by         X      X                       X                X
automated tracking
system


No Title VI and IX
                          X      X     X     X     X     X    X           X
Department Policy


Freeze on OEO
positions has affected    X      X                       X                X
performance


Need to consolidate
all public civil rights          X                 X     X          X     X
personnel at
Department


Lawsuits may result                    X                      X           X
from restructure

Affirmative
employment program                           X           X                X
should not be in HR

Affirmative
                          X                  X     X                      X
employment program
should be in HR




                                                                                      22
